audit report



Return to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the City of Berwyn, Illinois, Police Department
GR-50-99-009  
April 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of Berwyn, Illinois, Police Department (BPD).  The BPD received a grant of $150,000 to hire or rehire two additional sworn police officers under the Funding Accelerated for Smaller Towns (FAST) program and supplemental awards totalling $750,000 under the Universal Hiring Program (UHP) to hire or rehire ten additional sworn police officers.  In addition it received $18,144 under the Making Officer Redeployment Effective (MORE) program to redeploy one full-time equivalent (FTE) police officer per year and two annual supplemental awards totalling $36,288.  The purpose of the additional officers is to enhance community policing efforts.

	In brief, we found that the grantee generally complied with grant requirements.  However, our audit revealed that:

Reimbursement requests and Financial Status Reports were prepared using estimated rather than actual data.  As a result, the reported program costs did not reconcile to the accounting records.  

	The grantee did not maintain documentation of officer redeployment under the MORE award.

	In the aggregate, Financial Status Reports for the three grants were submitted late in 16 of 23 instances.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in the Appendix I.